<html>
<title> - LEGISLATIVE HEARING ON S. 2421, THE FAIR AGRICULTURAL REPORTING METHOD ACT</title>
<body><pre>[Senate Hearing 115-237]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-237

LEGISLATIVE HEARING ON S. 2421, THE FAIR AGRICULTURAL REPORTING METHOD 
                                  ACT

=======================================================================

                                HEARING

                               BEFORE THE

 SUBCOMMITTEE ON SUPERFUND, WASTE MANAGEMENT, AND REGULATORY OVERSIGHT

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 8, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
  


        Available via the World Wide Web: http://www.govinfo.gov
               
               
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-052 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec8b9c83ac8f999f988489809cc28f8381c2">[email&#160;protected]</a>             
               
               
              
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
                              ----------                              

             Subcommittee on Superfund, Waste Management, 
                        and Regulatory Oversight

                  MIKE ROUNDS, South Dakota, Chairman
JERRY MORAN, Kansas                  CORY A. BOOKER, New Jersey, 
JONI ERNST, Iowa                         Ranking Member
DAN SULLIVAN, Alaska                 BERNARD SANDERS, Vermont
JOHN BARRASSO, Wyoming (ex officio)  CHRIS VAN HOLLEN, Maryland
                                     THOMAS R. CARPER, Delaware (ex 
                                         officio)
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 8, 2018
                           OPENING STATEMENTS

Rounds, Hon. Mike, U.S. Senator from the State of South Dakota...     1
Booker, Hon. Cory A., U.S. Senator from the State of New Jersey..     2
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     4
Fischer, Hon. Deb, U.S. Senator from the State of Nebraska.......     8
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     9

                               WITNESSES

Mortenson, Todd, Mortenson Ranch, member, National Cattlemen's 
  Beef Association...............................................    11
    Prepared statement...........................................    14
    Responses to additional questions from:
        Senator Barrasso.........................................    20
        Senator Ernst............................................    21
Satterfield, Bill, Executive Director, Delmarva Poultry Industry, 
  Inc............................................................    23
    Prepared statement...........................................    25
    Responses to additional questions from Senator Barrasso......    30
    Response to an additional question from Senator Ernst........    31
Kuhn, Mark, Floyd County Supervisor, Floyd County, Iowa..........    32
    Prepared statement...........................................    34
    Response to an additional question from Senator Ernst........    57

                              LEGISLATION

Text of S. 2421, the Fair Agricultural Reporting Method Act......   107

                          ADDITIONAL MATERIAL

Letter to Senators Barrasso, Rounds, Carper, and Booker from 
  Marti and Larry Olesen et al., March 7, 2018...................   111
Letter to Senators Barrasso, Rounds, Carper, and Booker from the 
  Animal Legal Defense Fund et al., March 9, 2018................   122

 
LEGISLATIVE HEARING ON S. 2421, THE FAIR AGRICULTURAL REPORTING METHOD 
                                  ACT

                              ----------                              


                        THURSDAY, MARCH 8, 2018

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Superfund, Waste Management, 
                                  and Regulatory Oversight,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Mike Rounds 
(Chairman of the Subcommittee) presiding.
    Present: Senators Rounds, Booker, Moran, Ernst, Van Hollen, 
Barrasso, Carper, Inhofe, Boozman, Wicker, Fischer, and Markey.

            OPENING STATEMENT OF HON. MIKE ROUNDS, 
          U.S. SENATOR FROM THE STATE OF SOUTH DAKOTA

    Senator Rounds. Well, good morning.
    The Environment and Public Works Subcommittee on Superfund, 
Waste Management, and Regulatory Oversight is meeting today to 
conduct a legislative hearing on S. 2421, the Fair Agricultural 
Reporting Method, or FARM Act.
    Comprehensive Environmental Response, Compensation, and 
Liability Act of 1980, or CERCLA, was established to manage 
hazardous waste and respond to environmental emergency spills 
and natural disasters. Under CERCLA, the owner or operator of a 
facility must report the release of a certain amount of 
hazardous substance to authorities within 24 hours. This is to 
make certain that first responders have the information they 
need to adequately respond to a release of a hazardous 
substance into the environment and surrounding community.
    Although ammonia and hydrogen sulfide are both considered 
hazardous substances under CERCLA, and both are emitted into 
the air from animal manure, Congress never intended normal 
agricultural operations and American farmers to be subject to 
the reporting requirements under these laws. CERCLA was 
intended to make certain State and Federal officials have the 
information they need in the event they have to respond to an 
emergency release of a hazardous substance. It is unlikely 
Federal officials would be required to respond to an emergency 
release at a cattle operation or a poultry farm, particularly 
one resulting from animal waste or emissions.
    Further, it is unlikely the U.S. Coast Guard, which 
coordinates CERCLA reporting, has the resources to manage the 
nearly 200,000 farms that would be required to report their 
daily activities under this rule. This additional burden on 
resources could potentially hinder the ability of first 
responders to respond to real emergencies.
    Accordingly, in 2008 the Environmental Protection Agency 
released a rule exempting animal waste at agricultural 
operations from CERCLA reporting. However, in 2017 the D.C. 
Circuit Court, in Waterkeeper Alliance v. EPA, vacated the 
EPA's 2008 rule. This decision leaves approximately 200,000 
American farmers subject to bureaucratic and burdensome 
reporting and paperwork, the requirements that may overwhelm 
first responders, while the benefits of this regulation are 
questionable at best.
    That is why I have worked with Senator Fischer, Chairman 
Barrasso, Ranking Member Carper, and the rest of my bipartisan 
colleagues to introduce the Fair Agricultural Reporting Method, 
or FARM Act. This legislation would reinstate the CERCLA 
reporting exemption for air emissions from animal wastes so 
that American farmers and ranchers will not be burdened by 
needless Federal regulations and can continue to do what they 
do best.
    American farmers and ranchers are already required to 
comply with multiple Federal regulations governing how they run 
their operations. Complying with these Federal regulations 
requires hours of paperwork, time, money, and resources, all of 
which take away from actually being able to work on their land. 
We should not make them subject to additional layers of 
bureaucracy that Congress never intended them to be subject to.
    It should also be noted that CERCLA is the basis for EPA's 
Superfund program. This law was intended to allow the EPA to 
coordinate cleanups of hazardous waste or Superfund sites. A 
U.S. farm or ranch is most certainly not a Superfund site and 
should not be regulated as such. The FARM Act prevents U.S. 
farmers and ranchers from being subject to needless regulations 
that have no environmental benefit.
    I would like to thank Senator Fischer and Chairman Barrasso 
for their leadership on this issue. I am glad we were able to 
work in a bipartisan fashion to move this bill forward.
    Our witnesses today are members of the agricultural 
community, with decades of experience in farming and ranching. 
They are well versed in agricultural operations and how Federal 
regulations affect their way of life, and their ability to do 
business and provide the food that we all rely on.
    I would like to thank our witnesses for being here today 
with us, and I look forward to hearing their testimony.
    Now I would like to recognize Senator Booker for a 5 minute 
opening statement.
    Senator Booker.

           OPENING STATEMENT OF HON. CORY A. BOOKER, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Booker. I am really grateful, Chairman Rounds, to 
be able to serve with you on this Committee; it is exciting to 
have the opportunity to partner with you. I hope it is as well 
as my partnership with Senator Fischer. She and I were a great 
tag team. She is still mad at me for leaving her in the other 
committee.
    But I want to thank our witnesses for being here today. I 
think this is just a really important conversation. The issue 
of air emissions from large CAFOs and the impact of those 
emissions on neighboring property owners is indeed a very 
serious issue, life threatening issue.
    As animal waste breaks down, it emits dangerous pollutants, 
specifically ammonia and hydrogen sulfide, as the Chairman 
said. To protect the health of the small family farmers and 
other residents who live near these massive CAFOs, there are 
currently two laws that require reporting of emissions of 
ammonia and hydrogen sulfide at levels of 100 pounds per day.
    The first law, CERCLA, which the Chairman mentioned, 
requires reporting of these emissions to the Coast Guard 
National Response Center. The second law, EPCRA, requires 
reporting of emissions from extremely hazardous substances to 
State and local authorities. In 2008 again, as the Chairman 
detailed, the EPA attempted to exempt all CAFOs from having to 
report their emissions under CERCLA, and also attempted to 
exempt all but the largest CAFOs from reporting under EPCRA.
    Last year, the D.C. Circuit Court struck down the attempt 
by the EPA to exempt reporting emissions of hydrogen sulfide 
and ammonia from CAFOs. The D.C. Circuit Court, in its 
decision, stated the risk of harm of those emissions isn't just 
theoretical; people have become seriously ill and even died as 
a result of them.
    EPA itself has found that hydrogen sulfide can cause 
respiratory irritation and cause central nervous system effects 
1 mile downwind when emitted at current reportable quality of 
100 pounds per day. Of those affected, children are the most at 
risk for lung disease and health effects, and the closer a 
child lives to a CAFO, the greater the risk of asthma symptoms.
    At the last meeting of this Committee, I talked about my 
2016 trip to Duplin County, North Carolina. Given the focus of 
today's hearing, I want to again talk about my trip and my 
firsthand experiences going to Duplin County.
    In 2016 residents from Duplin came to Washington, telling 
lawmakers that they desperately needed help. There are about 
60,000 people that live in Duplin County, but there are more 
than 2 million pigs being raised there. And the primary way 
that the waste from those 2 million pigs is disposed of is by 
piping it into huge, open air lagoons and then spraying the 
waste out onto open fields, what I witnessed myself, with my 
own eyes.
    These residents that came to Washington complained about 
suffering from serious respiratory problems such as asthma and 
chronic lung disease caused by living near these lagoons and 
spray fields. So, when I visited Duplin County, I wanted to see 
these conditions firsthand, and what I saw there is something I 
will never, ever forget.
    I saw pig waste being sprayed; I saw how the wind was 
carrying the mist. Some of the spray would fall, but I watched 
it mist onto adjacent properties. I smelled what was a 
wretched, horrible smell standing hundreds and hundreds of 
yards away, and how that smell permeated the entire community. 
I heard heartbreaking stories from residents who said they too 
often felt like prisoners in their own homes.
    In fact, I met a veteran from foreign wars who said I 
fought for my country overseas, and I came back and am a 
prisoner in my own home. They talked about how they no longer 
can have cookouts in their backyards; that they can't even open 
their windows or run their air conditioning because of that 
toxic smell.
    So when we have legislation before us that would create 
exemptions from reporting, I think we need to be very careful 
how we proceed. Under current law, we still have communities 
like Duplin County, where people are truly suffering, where 
their rates of respiratory illness and other diseases are 
higher than the general population.
    I was happy to see that this bill, S. 2421, only proposes 
to exempt CAFOs from reporting under CERCLA, and not under 
EPCRA. And I know that Senator Carper and others fought to 
limit the scope of the bill before signing on. But the problem 
is that the EPA is again taking action to exempt CAFOs from 
having to report these emissions under EPCRA. If the EPA is 
successful in creating a complete exemption, local residents 
will no longer have access to information about the levels of 
these harmful chemicals being emitted literally into their 
front yards, as I know we will see from one witness.
    Some farmers should not have to file unnecessary paperwork. 
I believe that very strongly. And ranchers who engage in 
pasture based farming, like Mr. Mortenson does, should not have 
to calculate emissions and file forms.
    But larger CAFOs are a different story. The type of 
operations that I saw in North Carolina, and the type in Iowa 
that Mr. Kuhn will describe in his testimony, create serious 
health risks. This is about people. This is about their lives, 
their livelihoods, their property values, and their health. And 
as it currently stands, reporting under EPCRA is not difficult; 
large CAFOs have been doing it for years, and a reporting 
mechanism is already in place.
    So, I hope that between Congress and the EPA we can find a 
path forward that gives clarity to small farmers that they do 
not need to report their emissions, but that continues to 
require reporting under EPCRA by CAFOs that emit over 100 
pounds per day of ammonia or hydrogen sulfide, serious 
dangerously agents.
    Thank you, Senator Rounds, for this, which, again, I think 
is an urgently needed conversation, and I look forward to 
hearing from our witnesses.
    Senator Rounds. Thank you, Senator Booker, and I look 
forward to working with you on this Committee, as well as the 
Ranking Member.
    Traditionally, in this Subcommittee, we would allow the 
Chairman and the Ranking Member of the full Committee to also 
have an opportunity to visit. Senator Barrasso just had to 
leave to go to a business meeting, so he has indicated that he 
would pass on his opportunity at this point. However, we are 
privileged in that Ranking Member Carper is here, and at this 
time I would like to ask Senator Carper if he would like to 
make an opening statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Yes, I would. Thank you.
    I appreciate very much the Chairman and the Ranking Member 
hosting this hearing today. Thank Senator Fischer and others 
for trying to lead us to a principled compromise, where we are 
mindful of the need to protect public health, and at the same 
time, to make sure that an industry which provides a lot of 
jobs in this country--the ag industry--is able to be successful 
and compete in the world.
    Delaware is not a big State. I go home almost every night; 
went home last night. We have three counties; the largest one 
is in southern Delaware. Sussex County is the third largest 
county in America. It is a little State, but the third largest 
county in America.
    We raise more chickens there, I am told, than any county in 
America. Last time I checked, we raise more soybean than any 
county in America. And I think the last time I checked we raise 
more lima beans than any county in America, and I think we have 
more five-star beaches than any county in America. So it is a 
little State, but that is quite a county, isn't it? But we have 
a lot of people who live there, and we want to make sure they 
have a good environment in which to live; clean air, clean 
water.
    We raise a lot of chickens on Delmarva, as Bill knows, 
Delaware, Maryland, and the Virginia eastern shore, and for 
years the farmers have taken chicken litter, chicken manure, 
and mixed with sawdust, which is usually on the floor of the 
chicken house; they mix it together and use it for fertilizer 
and spread it on farm fields all over Delmarva and certainly 
all over Sussex County in order to support raising soybeans, 
corn, and other crops.
    For years and years we were not very good environmental 
stewards with the way we spread our chicken litter on our farm 
fields. Didn't do a good job. As Bill knows, a lot of our farm 
fields drain into creeks, drain into ditches, and eventually 
into rivers, Nanticoke River, which flows into the Chesapeake 
Bay. The Chesapeake Bay badly degraded, and we were one of the 
reasons why it was badly degraded.
    About 20 years ago, my last term as Governor, we put 
together a farmer led initiative, nutrient management 
commission, farmer led, includes some environmentalists, 
includes the Department of Natural Resources and Environmental 
Control, and we figured out a way to make sure that folks who 
were spreading chicken litter on farm fields, which is high in 
phosphorus, high in nitrogen. It is good fertilizer, relatively 
inexpensive; we have to figure out what to do with it.
    For those who, starting in the late 1990s, were going to be 
spread chicken litter, they had to get a plan. They had to 
submit a plan, say this is my plan, here is how I am going to 
do it; have to have their soil tested to make sure it was 
appropriate for receiving chicken litter, how much could go 
onto the farm fields that would be safe for public health, and 
to make sure that the farmers were adhering to their nutrient 
management plan. We have been doing that for over 15 years.
    Senator Van Hollen and Senator Cardin will tell you that 
the quality of the water in the Chesapeake Bay has 
significantly improved. Is it perfect? No, it is not. Delaware 
was not a good neighbor for many, many years. I think we are a 
much better neighbor today. They have a neighbor up to the 
north, Pennsylvania; so do we. I don't think Pennsylvania has 
sort of--we have to get them online.
    But Delaware is a much better neighbor today. Can we do 
better? Sure, we can always do better. Everything I do, 
everything all of us do, we can do better. But I just want to 
give you that for a little bit of context.
    I have known Bill Satterfield forever. When I was elected 
State Treasurer at the age of 29, every time you get on the 
radio, if you are State Treasurer, it is not a hot commodity 
like being a Senator. Every now and then I would get invited to 
Radio Station WDOV--was that the name of the station?--WKEN in 
Dover, Delaware. One of the folks who was on, one of the people 
who did this talk radio, and one of the folks who did some of 
the program and some of the interviews was Bill Satterfield.
    He was nice enough to invite me to be on his show from time 
to time, and on my way, driving on Route 8 to WKEN to do the 
interview, I would drive--was it a Tastee-Freez?--I would drive 
by Tastee-Freez on my way. I love chocolate milkshakes. I would 
stop and get a chocolate milkshake. He was a co-owner. Who was 
the other guy who was a co-owner with you? Yes, Rick.
    And I would get a chocolate milkshake and then I would go 
do the interview, and he would say to me at the beginning of 
the interview, he would say, ``How are you doing today?'' And I 
would say, ``Great. There was a Tastee-Freez on the way out 
here on Route 8, and I love to stop there and get a chocolate 
milkshake; in fact, I am having one right now. And you guys 
make the best--I don't know who owns that place, but they make 
the best chocolate milkshake.''
    But anyway, from those humble beginnings, me, a State 
Treasurer, and Bill as a radio interview personality, he went 
on to join the Delmarva poultry industry in 1986, was named 
their Executive Director in 1993, and he works to advance the 
interests of our Delmarva poultry farmers. I said earlier ag is 
a big deal in our State, and especially in the southern part of 
the State.
    I have said a million times before to my colleagues that it 
is possible to have clean air, it is possible to have clean 
water, cleaner air, cleaner water, and good public health, and 
still have jobs, and there is always a balance, and sometimes 
it is not easy to find that balance, but we think we are 
working toward that and still will continue to do this.
    But I said in our full Committee here on ag issues last 
month, I acknowledged that sometimes environmental requirements 
can be complex. They can be confusing to those who farm, 
especially when those rules apply suddenly to them, and that is 
what happened in April 2017 when the D.C. Circuit Court of 
appeals invalidated an EPA rule from 2008.
    That rule had exempted all farms in the nation, as we have 
heard today, from reporting requirements for hazardous air 
emissions from animal waste under CERCLA. That rule also 
exempted small and medium sized farms from reporting under the 
Emergency Planning and Community Right-to-Know Act, which we 
know as EPCRA, but left in place, reporting requirements for 
large farms.
    But with the FARM Act, the legislation that we are holding 
this hearing on today, we are hoping to provide certainty to 
farmers by legislatively exempting all farms under CERCLA, as 
was done by EPA in its 2008 rule.
    One thing I worked hard on this legislation with Senators 
Fischer and Barrasso and others, as we were developing this 
legislation, is to make sure the FARM Act makes no change to 
EPCRA reporting, no change. And I think Senator Booker has 
mentioned this already.
    I just want to thank both Senator Barrasso, I want to thank 
Senator Fischer, others, other staffs and others for working 
with my staff and me and agreeing not to amend EPCRA in this 
bill. This is an issue that was critical for many members on 
our Democratic side. We have repeatedly heard concerns from 
State and local officials, public health experts and other 
members of our communities who want information about what is 
in their air, and this bill seeks to strike a careful balance. 
As a result, it enjoys broad, bipartisan support. My hope is 
that that broad support can be translated into prompt 
legislative action.
    Again, my thanks to all who played a role in crafting this 
compromise which is before us today.
    Senator Booker and I show up most Thursdays, we will do it 
later today, at a Bible study group led by our Chaplain, Barry 
Black, for about a half an hour. It is for those seven or eight 
of us who need the most help, right?
    One of the things that Chaplain Black, who is retired Navy 
Admiral, former Chief of Chaplains for the Navy and Marine 
Corps, he always reminds us every week of the Golden Rule: 
treat other people the way we want to be treated, and love thy 
neighbor as thyself. And this is an effort, I think, a good 
faith effort to try to make sure that we are true to that 
admonition.
    We are not there yet, but it is striving toward perfection. 
Keep striving, keep striving, and hopefully some day we will 
get there. Maybe we will even get to Heaven. Who knows?
    Thank you so much.
    Senator Rounds. Thank you, Senator Carper. I think Senator 
Booker was right as he suggested to me that not only will they 
probably clip your message here on behalf of your local Chamber 
of Commerce, but probably the dairy and milk industries will as 
well. Chocolate malts sound very good, actually.
    I would also make note that Senator Carper has suggested 
that this is a bipartisan effort. A lot of that has to do with 
the leadership of Senator Fischer and her work here to gather 
both Republicans and Democrats as part of this. She currently 
has 12 Democrats and 21 Republicans on this as cosponsors, and 
that says a lot about the leadership that she has provided.
    I would like to give Senator Fischer the opportunity to 
visit a little bit about this legislation before we move 
directly to our witnesses.
    Senator Booker. And I would like to note for the record it 
was her birthday last week. She is now, I think, 38.
    [Laughter.]
    Senator Fischer. That would be correct.
    [Laughter.]

            OPENING STATEMENT OF HON. DEB FISCHER, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Fischer. Thank you, Chairman Rounds and Ranking 
Member Booker, for convening today's legislative hearing on 
important bipartisan legislation that would ensure common sense 
policies prevail for our farmers, our ranchers, and our 
livestock markets.
    Mr. Chairman, I thank you for your support, and to my other 
EPW colleagues, Chairman Barrasso, Ranking Member Carper, 
Senators Inhofe, Ernst, Moran, Duckworth, Wicker, and Boozman, 
for supporting this important legislation. I would also like to 
thank the witness panel for their willingness to share their 
time and experience with our Committee this morning.
    Since my first day in Congress I have worked with my Senate 
colleagues to promote policies that enable our ag producers to 
prosper, while also safeguarding our environment. The bill 
before us today, the Fair Agricultural Reporting Method, or the 
FARM Act, would provide greater certainty for ag producers. It 
will protect farmers and ranchers from burdensome reporting 
requirements for animal waste emissions under the Superfund 
law, also known as CERCLA.
    When CERCLA was enacted, Congress never intended the law to 
affect normal production agricultural practices. Instead, the 
law is meant to address dangerous industrial pollution, 
chemical plant explosions, and the release of hazardous 
materials into the environment.
    In an effort to clarify that animal manure is not a 
hazardous chemical emission, the EPA published a final rule in 
2008 that exempted most livestock operations from animal waste 
emission reporting requirements under CERCLA. But last year the 
U.S. Court of Appeals for the D.C. Circuit vacated the 2008 
rule, noting that the EPA does not have the authority to grant 
the reporting requirement exemption.
    The Court's decision created confusion, and it created that 
for both the EPA and ag producers, and that sent a clear 
message that a legislative fix from Congress is needed to 
clarify these reporting requirements. My legislation does 
exactly that.
    The FARM Act codifies the original intent from the EPA's 
2008 rule by mirroring the intent of the exemption. It does so 
by providing an exemption for air emissions from animal waste 
from CERCLA reporting requirements. Most importantly, it 
provides ag producers with greater certainty by reinstating the 
status quo that producers have been operating under since EPA's 
final 2008 rule.
    It is important to also note that while EPA administers 
CERCLA, producers must notify the National Response Center, 
which is housed under the U.S. Coast Guard, of their animal 
waste emission releases. The NRC reported that their daily 
calls jumped from an average to 100 to 150 to well over 1,000 a 
day, creating at times a 2 hour wait delay. Due to the extreme 
influx of reports, the director of the NRC wrote to me that 
without the CERCLA exemption, the increased reporting would 
absolutely hinder the Coast Guard's ability to respond to real 
emergencies around this country.
    We all want clean air, and we want clean water. Our farmers 
and ranchers understand this better than most, and it is 
important for us to provide them the necessary tools that they 
need to continue to feed our nation and to feed the world. 
America's farm and ranch families are currently experiencing a 
tough economy. We have depressed markets, and we have tight 
margins. They shouldn't also have to worry about reporting 
their animal waste emissions.
    This is an issue where we can provide a solution. It is one 
of those rare moments where everyone involved, our 
stakeholders, the EPA, and the National Response Center, all 
want a fix, and I am grateful for the bipartisan interest in 
seizing this opportunity.
    I am looking forward to today's discussion, and I thank my 
33 colleagues on both sides of the aisle for joining me in this 
legislation.
    Thank you, Mr. Chairman.
    Senator Rounds. Thank you, Senator Fischer, and once again, 
thanks for the leadership on this. This is very, very 
important. Any time you bring together both Republicans and 
Democrats in these numbers, that says a lot about the work that 
you put into it, so thank you.
    At this time, Senator Barrasso, who is the Chairman of our 
full Committee, has again rejoined the Subcommittee.
    Senator Barrasso, would you care to make any opening 
comments?

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Well, thank you very much, Mr. Chairman. 
I want to thank you, as well as Ranking Member Booker, for 
convening this hearing on S. 2421, the Fair Agricultural 
Reporting Method Act, the FARM Act. It is important bipartisan 
legislation that is going to help bring clarity to ranchers and 
to farmers in Wyoming and all across the country. I cosponsored 
the bill, strongly support it, and compliment Senator Fischer 
for its introduction.
    The Comprehensive Environmental Response, Compensation, and 
Liability Act, CERCLA, was enacted by Congress to give EPA the 
authority, the authority to respond to hazardous industrial 
pollution that threatens the environment and public health. It 
is an important and necessary law, provides tools to clean up 
polluted sites, and to hold responsible parties accountable.
    But when applied to the everyday activities of ranches and 
farms, it really makes very little sense. That is why, in 2008, 
the EPA finalized a rule to clarify that farming ranches are 
exempted from air emission reporting requirements under CERCLA. 
Even the Obama administration agreed that farmers and ranchers 
should be relieved of some of this burdensome regulation.
    In April 2017 the D.C. Circuit Court nullified the Obama 
administration rule, mandating new onerous reporting 
requirements for up to 100,000 farms and ranches.
    Now, Mr. Chairman, I was home in Wyoming the last 2 
weekends, 1 weekend in Riverton, Wyoming, the Freemont County 
Cattlemen's Association; last weekend in Big Piney and 
Marbleton, Wyoming, at the Green River Valley Cattlemen's 
Association. Look, I continue to hear how out of touch the 
environmental regulations have become, and this is a textbook 
example. The people who labor year round to feed, to clothe, to 
house our nation should not be burdened with the time and money 
it takes to estimate and to record and to file emissions 
reports that even the EPA has said it does not need or want.
    That is why enacting the FARM Act is critical. It is a 
common sense bill. It protects ranchers and farmers in Wyoming 
and around the nation from punishing and unnecessary Federal 
Government regulations. It eliminates regulatory uncertainty by 
putting into law the CERCLA animal air emissions exemption that 
producers have relied on since the EPA's 2008 rule. I believe 
it is an important bill.
    I would like to again thank Chairman Rounds, Ranking Member 
Booker for holding this hearing, and especially like to thank 
Senator Fischer for bringing it to us, bringing it to the 
Senate as we move forward on this bill.
    Thank you, Mr. Chairman.
    Senator Rounds. Thank you, Chairman Barrasso.
    Our first witness for today's hearing is Mr. Todd 
Mortenson, who is the Owner-Operator of Mortenson Ranch in 
South Dakota. On a personal note, Todd lost his father, 
Clarence, just this last week, who was a good friend of mine, a 
real gentleman, and truly, with regard to modern sustainable ag 
practices, probably one of the fathers of making it a reality 
in South Dakota.
    First of all, my condolences to you and to your family on 
the loss of your father, but also in South Dakota the loss of a 
real gentleman and a true part of the pride that we have in our 
State. So, just on a personal note, that loss is felt.
    Todd is the owner and operator of the Mortenson Ranch in 
Stanley County, South Dakota. His cow calf operation sits along 
the beautiful Cheyenne River, and Todd focuses on conservation 
and stewardship of his land. He has restored more than 90 
percent of his 19,000 acre ranch back to native grasses, 
shrubs, and trees, and for this Todd was recognized by the Sand 
County Foundation as the Leopold Conservation Award winner in 
2011.
    The Mortenson Ranch was also the subject of a multi-year 
study conducted by the South Dakota State University, and in my 
opinion, is a gold standard for striking a perfect balance 
between ranching, economics, and environmental conservation.
    I first went out to Todd's ranch way back in the 1990s, and 
I saw what they were doing for water improvement on livestock 
improvement, pasture improvement, bringing broadleaf back in 
and so forth, and it can be pointed to as a true success story 
for sustainable ag.
    Senator Carper is still here. I would like to yield to 
Senator Carper to introduce our second witness at this time.
    Senator Carper.
    Senator Carper. I think I have done about as much harm to 
Bill Satterfield's reputation as anybody can. But if you didn't 
get the drift of my earlier statements when I talked about him, 
a little bit about his background.
    Agriculture is hugely important in all of our States, but 
particularly in southern Delaware, and a big part of that is 
poultry. We always face, in every one of our States, the 
question can we have cleaner air, cleaner water, and still have 
jobs. Can we have better public health and still have jobs? And 
I always say it is a false choice to say you have to choose one 
or the other. We can have both. And part of what we want to do 
is make sure that we do a better job of adhering to that 
thought, and I think Bill understands that, and he has helped 
to provide leadership for a big consortium of folks who raise 
chickens, process chickens, export chickens all over the world, 
and we are grateful for his service in that regard, and I am 
just grateful for his friendship over all these years.
    Senator Booker. Mr. Chairman, I just want to note for the 
record that Mr. Satterfield did not bring chocolate milkshakes 
for everybody.
    [Laughter.]
    Senator Rounds. Duly noted.
    Senator Van Hollen. Mr. Chairman, if I just could, I 
believe, if I am not wrong, that Mr. Satterfield actually, if 
you still live in Salisbury, you are a Marylander, so we are 
very proud to have you as a Marylander, and thank you for being 
here.
    Senator Carper. But he still votes in Delaware. No, I am 
just kidding.
    [Laughter.]
    Senator Carper. For the record, he does not.
    Senator Rounds. We won't get into that today.
    Mr. Satterfield, welcome.
    Senator Carper. Thank you, Bill.
    Senator Rounds. Our third witness for today's hearing is 
Mr. Mark Kuhn, Floyd County Supervisor, Floyd County, Iowa, and 
we welcome you, as well, to this very special panel. Thank you, 
sir, for being here.
    Now we will turn to our first witness, Mr. Todd Mortenson, 
for 5 minutes.
    Mr. Mortenson, you may begin.

STATEMENT OF TODD MORTENSON, MORTENSON RANCH, MEMBER, NATIONAL 
                  CATTLEMEN'S BEEF ASSOCIATION

    Mr. Mortenson. Good morning. My name is Todd Mortenson. My 
wife, Deb, and I, along with our sons, Quinn and Jack, live on 
a ranch in Stanley County, South Dakota, along the Cheyenne 
River. I am a member of the South Dakota Cattlemen's 
Association and the National Cattlemen's Beef Association, and 
today I am representing cattle producers from across the 
country.
    Thank you, Chairman Rounds and Ranking Member Booker, for 
allowing me to testify on CERCLA reporting for agriculture and 
the importance of the FARM Act.
    Farmers and ranchers truly are America's original 
environmentalists. We care more than anyone about the land that 
we manage because the environmental quality of our operations 
directly impacts not only the health of our livestock, but the 
water we drink and the air we breathe. I work hard to implement 
management practices that improve the environmental 
sustainability of my ranch so that someday I can pass it on to 
my sons. For example, we move cattle to the uplands during the 
summer months, allowing increased native plant growth and 
decreased sediment flow through the ranch creeks.
    While I fully support best management practices that 
improve environmental quality, I cannot support needless 
requirements that burden the agricultural community while 
providing no benefit. A prime example of this is the burdensome 
reporting requirement under CERCLA which requires farmers and 
ranchers to report manure odors to multiple Federal agencies 
for emergency response coordination. Let me say that again, 
because the absurd bears repeating. CERCLA reporting requires 
farmers and ranchers to report manure odors to the Federal 
Government so that the Federal Government can coordinate an 
emergency response to manure odors.
    On my pasture based cow calf operation, I manage 1,295 cows 
on 19,000 acres. Because my cattle are so spread out, the 
concentration of emissions is extremely low. But CERCLA does 
not consider concentration, only release. It makes no 
difference whether my cattle are spread over 10 acres or 10,000 
acres; if my cattle emit over 100 pounds of ammonia or hydrogen 
sulfide per day, I am required to report their emissions to the 
Coast Guard and the EPA.
    It is clear that Congress never intended for CERCLA to 
govern agricultural manure odors. The EPA understands this, and 
in 2008 exempted agricultural operations from CERCLA reporting 
requirements. While the exemption was put in place by the 
George W. Bush administration, it was defended in court by the 
Obama administration. In defending the exemption, the Obama EPA 
argued that Congress did not include an exemption for manure 
emissions because they never dreamed that these low level 
emissions would fall into the possible realm of regulation.
    However, in April 2017 environmental groups won their 
lawsuit, and the D.C. Circuit Court eliminated these important 
exemptions. When the mandate issues in May, nearly 200,000 
farmers and ranchers will be required to report low level 
manure odors to the Federal Government.
    Reporting is no simple task; it is a three step process 
that requires, at minimum, 1 year to complete. The first step 
is an initial call to the Coast Guard, the agency tasked with 
coordinating emergency response for the nation's hazardous 
emergencies, such as oil spills and chemical explosions.
    The Coast Guard is on record stating that these reports 
don't help them at all. In fact, they only hurt their ability 
to respond to environmental and public health emergencies. For 
quotes from the Coast Guard's declaration to the D.C. Court, 
you can see my written testimony. In summary, the Coast Guard 
indicated that early calls in November from some livestock 
operations increased wait times to report emergency releases by 
up to 2 hours.
    The initial call is followed by two written reports to the 
EPA sent over the span of 1 year. These reports require 
detailed information regarding my cattle's emissions, 
information that I simply do not have. Research in this area is 
limited, to say the least. Only two land grant universities 
have done research to establish an emissions calculator, and as 
a pasture based producer, there is no available science to meet 
the statutory burden.
    It should also be noted that this reporting requirement is 
not a one and done obligation; any time I decide to increase 
the size of my herd, I am required to start the process all 
over again.
    To clarify these exemptions, Congress needs to change the 
law to reflect its intent that livestock producers are exempt 
from CERCLA reporting requirements. The FARM Act, introduced 
just a couple of weeks ago, provides the relief that livestock 
owners and first responders need under CERCLA, and has the same 
bipartisan support exhibited under the Bush and Obama 
administrations.
    CERCLA is one of our most important environmental statutes, 
providing the tools we need to effectively clean up releases 
that harm both the environment and public health. 
Unfortunately, we all know that environmental agencies are 
given low priority at both Federal and State level. The FARM 
Act will ensure that precious time and monetary resources are 
not siphoned from important cleanup efforts to address a 
paperwork requirement with no environmental or public health 
benefit.
    As May 1st quickly approaches, only Congress can ensure 
that the agriculture community is protected from this reporting 
burden, the reliability of our emergency response coordination 
is maintained, and the integrity of the Superfund law is not 
degraded.
    Thank you for your time, and thank you for your support of 
the FARM Act.
    [The prepared statement of Mr. Mortenson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Rounds. Thank you, Mr. Mortenson.
    We will now turn to our second witness, Mr. Bill 
Satterfield.
    Mr. Satterfield, you may begin.

  STATEMENT OF BILL SATTERFIELD, EXECUTIVE DIRECTOR, DELMARVA 
                     POULTRY INDUSTRY, INC.

    Mr. Satterfield. Good morning, Chairman Rounds, Ranking 
Member Booker, Mr. Van Hollen, and Senator Carper. Thank you 
for the trip down memory lane. What I do not recall is whether 
I charged you for that milkshake.
    [Laughter.]
    Senator Carper. Paid in full.
    Mr. Satterfield. I am Bill Satterfield. I am the Executive 
Director of Delmarva Poultry Industry Incorporated, which is 
the trade association for the meat chicken industry in 
Delaware, the eastern shore of Maryland, and the eastern shore 
of Virginia. On behalf of America's chicken, turkey, and egg 
farmers, I thank the leadership of this Committee and our 
Delmarva Peninsula Senators for introducing the FARM Act. As 
you have heard, this will restore the CERCLA reporting 
requirement exemption to the limited purpose, which was never 
intended to be low level air emissions from animal manure 
emissions.
    The FARM Act is needed because EPA's original farm 
reporting exemption was challenged in court, and in its 
decision the court adopted a strict reading of the CERCLA 
statute and concluded that Congress did not authorize EPA to 
create the exemptions. Therefore, failure to amend the CERCLA 
statute now to remove the reporting requirement for farm air 
emissions reporting will subject, as we have heard, 200,000 
farmers or more to these reporting requirements. Congress needs 
to clarify its intent immediately. The FARM Act will do this.
    While CERCLA is a valuable tool to protect the public and 
the environment from accidental releases of hazardous 
substances, it is hard to believe it was ever the intent of 
Congress to extend the reporting requirements to farms that 
incidentally release ammonia that is generated as manure 
decomposes. This guided our 2005 petition requesting an 
exemption from CERCLA reporting.
    After considering the request, EPA developed a rule that 
provided a narrow exemption for farms for reporting low level 
continuous releases of ammonia and hydrogen sulfide. EPA's 
exemption was based on Congress's intended purpose of notifying 
the National Response Center only when a truly hazardous 
substance is released. The NRC and the Coast Guard have 
indicated on several occasions that they did not intend to do 
anything with the information.
    While it is true that ammonia, which in significant 
concentrations and volumes is a substance reportable under 
CERCLA, it is a by-product of manure decomposition. The 
concentrations on poultry farms are at very low levels, and 
they dissipate rapidly into the air.
    University of Georgia researchers, in 2009, found that 
ammonia concentrations were lower as distance from the poultry 
houses increased. At no time during that study did the measured 
ammonia levels meet or exceed OSHA's ammonia odor detection 
threshold levels, and this underscores EPA's rationale for 
providing the exemption in 2008. Similarly, we cannot imagine 
that local emergency response agencies, if they even get this 
information, would do anything other than scratch their head 
and say, what are we supposed to do now?
    The EPA's anticipation on reporting concerns was entirely 
correct. In November of last year poultry farmers from the 
Delmarva Peninsula and other parts of the country attempted to 
initiate the then required CERCLA reporting process. One such 
grower is Sharon, who operates a poultry farm near Marydel, 
Maryland, just across the border from Delaware.
    Upon calling the NRC to provide an initial notification of 
a continuous release, a recording informed her that NRC would 
not be accepting telephone notifications. And as feared, as 
Senator Fischer was saying, the system was overloaded. The 
reporting to Sharon told her to submit the initial response in 
e-mail form.
    Well, you need to understand that many farmers do not use 
e-mail, do not have e-mail, so requiring e-mail notification is 
not practical and could result in these farmers--wishing to be 
compliant with the law--being in violation. Sharon is 73 years 
old; never has owned a computer, never used e-mail, so that was 
not an option for her.
    That is just one example of the numerous breakdowns in the 
reporting system starting last November. This indicates that 
the NRC did not recognize these reports as emergencies that 
require an immediate response or action.
    Requiring the emissions monitoring is difficult. 
Calculating air emission levels is very complicated, and it is 
hard to do, and there needs to be a whole lot more research on 
how do you do it, because chicken houses differ, the age of the 
birds have a factor, the age of the litter material, the 
weather, the treatment of the birds inside the house all play 
factors.
    So, simply put, CERCLA was never intended to force farmers 
to report low level emissions from normal, everyday 
agricultural operations.
    On behalf of Delmarva Poultry Industry Incorporated and the 
entire poultry industry nationwide, we thank the Committee and 
its members for introducing this Act. This bill will put 
enormous regulatory relief to countless farmers across America 
without sacrificing human health and will give them more time 
to focus on their vocation, which is producing food for America 
and the world.
    I appreciate the opportunity to testify and would be happy 
to answer any questions at any time. Thank you.
    [The prepared statement of Mr. Satterfield follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Rounds. Thank you, Mr. Satterfield.
    We will now turn to our third witness, Mr. Kuhn.
    Mr. Kuhn, you may begin.

STATEMENT OF MARK KUHN, FLOYD COUNTY SUPERVISOR, FLOYD COUNTY, 
                              IOWA

    Mr. Kuhn. Thank you, Chairman Rounds and Ranking Member 
Booker, for inviting me to address the Subcommittee, and 
welcome from Iowa, hello from Iowa, Senator Ernst, the Hawkeye 
State.
    I am a farmer and current member of the Board of 
Supervisors from Floyd County, Iowa. I served six terms as a 
State representative and was one of 12 legislators who drafted 
the last major change to Iowa's confined animal feeding law in 
2002. I know how essential it is to monitor air emissions from 
CAFOs and why results should be shared with neighbors, 
communities, and emergency responders.
    According to Iowa State University, Iowa's hogs, cattle, 
and poultry produce a combined total of 50 million tons of 
manure each year. Amid growing concerns about public health and 
the environment in 2001 Iowa Governor Tom Vilsack asked the 
College of Agriculture at Iowa State University and the College 
of Public Health at the University of Iowa to provide guidance 
regarding the impact of air quality surrounding CAFOs on Iowans 
and recommended methods for reducing and/or minimizing 
emissions.
    Based on an analysis of peer reviewed, duplicated, 
legitimate, and published scientific research, the consensus of 
the entire study group was that hydrogen sulfide and ammonia 
should be considered for regulatory action. Both of these gases 
have been measured in the general vicinity of livestock 
operations at concentrations of potential health concern for 
rural residents under prolonged exposure.
    In April 2002 Governor Vilsack signed new livestock 
regulations into law giving the Iowa Department of Natural 
Resources authority to develop air quality rules and monitor 
CAFOs. During the next 2 years three attempts by the DNR to 
establish regulations for hydrogen sulfide and ammonia were 
nullified after strong opposition from the CAFO industry.
    In March 2004 the industry introduced through friendly 
legislators a bill to set air emission standards. The bill was 
passed by the legislators, but vetoed by Governor Vilsack. In 
his veto message, Vilsack stated the bill represented a 
significant step backward because it would not adequately 
protect the health of Iowans, and it would set a standard so 
lenient it would undermine the credibility of the CAFO 
industry.
    Nothing has changed in Iowa since the joint university 
report 16 years ago, with two key exceptions: Iowa has more 
than four times as many CAFOs as they did then, and the pork 
industry is about to go hog wild again. An unprecedented 
increase in packing plant capacity in Iowa, fueled by the 
demand for exported pork to China, will likely result in an 
onslaught of new CAFOs.
    It is clear to me that the CAFO industry is opposed to any 
air emission regulations. It intends to continue business as 
usual as long as State elected officials in Iowa allow it. This 
isn't a rural versus urban issue; it affects all Iowans. It 
pits neighbor versus neighbor all too often. It pits farmer 
versus farmer.
    Please be assured these reporting requirements do not 
affect small family farms. The CAFO industry is industrialized 
factory farm agriculture. It is vertically integrated from top 
to bottom; giant corporations get the profits from the hogs 
they own and process at their packing plants, local farmers 
build the barns and get the manure, while neighbors get the 
pollution.
    A preponderance of evidence shows that toxic air emissions 
from CAFOs can adversely affect immediate neighbors and nearby 
communities. Those with allergies, asthmatics--especially 
children, in which asthma is more common--and adults with COPD 
are at particular risk.
    In Iowa it takes a good neighbor to be a good neighbor. I 
will close with the story of one good neighbor family in Floyd 
County. Jeff and Gail Schwartzkopf bought a house in the 
country near the small town of Rudd 4 years ago. Thirty days 
after they moved into their new home they learned a large CAFO 
was going up 1,987 feet south of them. Once it was built and 
populated with thousands of squealing pigs, their lives changed 
forever.
    According to Gail, ``We tried to make the best of it, but 
nothing worked. We stopped enjoying the outdoors. We hate the 
stench, the biting flies, our burning eyes, scratchy throat, 
fatigue, digestive issues, and insomnia because we worry about 
our health. We can't open our windows or hang our clothes on 
the line to dry. There are only 5 or 6 days out of a month when 
it doesn't smell like rotten eggs.''
    The Schwartzkopf family is surrounded by three large CAFOs. 
They should be protected from toxic air emissions that impact 
their health and diminish their quality of life, but Iowa 
lawmakers refuse to act. So now it is up to you to protect 
their access to air emission information under both CERCLA and 
EPCRA.
    This is a picture of Gail and her family, and the view from 
their front yard. The last thing Gail told me before I left for 
Washington, DC, was ``I wish this picture was scratch and sniff 
so all those Senators could partake of the toxic emissions and 
polluted air if only for a little while.''
    Thank you for listening.
    [The prepared statement of Mr. Kuhn follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Rounds. Thank you, Mr. Kuhn, for your testimony 
today.
    At this time, each of the Senators will have 5 minutes to 
ask questions of our witnesses. I will begin.
    Before I actually start with questions, I would like to ask 
unanimous consent to include two letters of support for this 
legislation and ask they be entered into the record of this 
meeting, a letter from the American Farm Bureau and a letter 
from the Wyoming Stock Growers Association.
    Hearing none, we will enter it.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Rounds. With that--first of all, Mr. Mortenson, if 
I could just begin with you. I am familiar with where your 
ranch is, and I know it is on the Cheyenne River, and it 
overlooks the Oahe Dam and Reservoir. It is one of the most 
beautiful lakes in all of America, in my opinion; it is 180 
miles long, 5, 6 miles wide in some areas, and you can go out 
and look down 10 foot and see the bottom. It is a couple 
hundred feet deep in a lot of areas, but it is absolutely 
beautiful, and the water is clear.
    America's ranchers, just as you, are on the front line of 
the nation's conservation efforts. Ranchers like yourself are 
truly our best stewards of the land. Can you talk about what 
you do to protect the environment and South Dakota's natural 
resources and maybe also, on a brief basis, why you do it?
    Mr. Mortenson. I will start with the last question, why you 
do it. It is the right thing to do because we all have to 
breathe the same air and drink the water. Like you said, we are 
on Lake Oahe, we are on the Cheyenne River arm of Lake Oahe, so 
what runs off my ranch basically goes all the way to New 
Orleans, so I am very cognizant of what that is and make sure 
that I am doing the best that I can to stop any pollution.
    Now, as Senator Rounds indicated earlier, SDSU, the college 
in Brookings, has done research on the ranch, quite 
extensively, and one of the research projects they had had to 
do with water quality, and what they found out is that the 
water running off our ranch is cleaner than the water that runs 
onto it from the neighboring farms and ranches. So we are very 
proud of that fact, that we are doing the right thing 
environmentally to clean up not only the water, but the air.
    We practice what we call holistic management, and that 
means we take into account everything on the ranch, from the 
people to the land to the wildlife, and all of those things are 
interconnected, and if any of them aren't healthy, the whole 
system will fail. So we make sure that everything has a chance 
to thrive on the ranch, regardless of whether it is livestock 
or the trees, the shrubs, anything like that. We are very 
conscientious about the environment we live in.
    Senator Rounds. You are a volunteer fireman, as well. Can 
you comment a little bit about what it would do with regard to 
first responders if we actually had to try to get the Corps of 
Engineers to respond? I am not even sure where the nearest 
Corps of Engineers office is and how many hundreds of miles 
away it is from our part of the world, but can you comment a 
little bit about what the impact would be if your local 
emergency responders had to respond to the call each time one 
of these reports was to be filed?
    Mr. Mortenson. Certainly. Not only am I a volunteer 
fireman, but I am also a first responder, EMS first responder, 
and it adds another layer, basically, of paperwork that you 
would have to do and potentially could slow down your response 
time. I am going to a Superfund site out in the middle of 
Stanley County somewhere; now I have to worry about, is it for 
real, or is it a chemical that I am worried about, or is it a 
cow pie that I might step in and slip and fall.
    Those are very real concerns because, as a first responder, 
your first duty is to make sure that the scene is safe. So you 
can't enter a scene until you have determined that, and this 
will just slow down that response time.
    Senator Rounds. Sometimes I think, when we get into these 
meetings here in DC, we start talking about manure, and we 
start talking about it as this thing which has little value. 
Can you talk about the value of manure as we see it, in terms 
of the ag operations and the value that we have with regard to 
manure?
    Mr. Mortenson. Absolutely. In my operation, it is a pasture 
based operation, obviously, and there is a little bug that we 
monitor, it is called the dung beetle. And that dung beetle, 
when that pat hits the ground, those things come from all over 
the place. They have little antenna that they sense the smell 
and they zoom in on those cow pats. They make little balls, lay 
their eggs in these little manure balls, and then roll them 
into a hole. They roll them away from the cow pat, dig a hole, 
and down into it it goes.
    When the eggs hatch, the larvae feed on the manure, and 
then when they are big enough, they come out. What does that 
do? Several things: it fertilizes the ground, No. 1, and No. 2, 
it aerates the ground, it opens the ground up so the water 
percolates into the ground a lot easier. So the cow pat is very 
important to the overall health of our range land.
    Senator Rounds. Do you know any producers out there right 
now that actually don't value manure in their operations?
    Mr. Mortenson. None. I mean, with the cost of commercial 
fertilizer, this is, by far and away, the cheapest and the best 
product that is out there. And like I say, for me, Mother 
Nature is doing the work; she is the one that is putting the 
fertilizer into the ground.
    Senator Rounds. Mr. Mortenson, thank you.
    Senator Booker.
    Senator Booker. Mr. Chairman, if it is OK with you, I am 
going to defer to my Ranking Member and my colleague. Before I 
do, I just want to ask unanimous consent to submit into the 
record materials from the Congressional Research Service 
analyzing the effects of S. 2421, the FARM Act.
    Senator Rounds. Without objection.
    Senator Booker. Thank you.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. I want to thank my colleague for yielding 
and giving me this opportunity to ask some questions so I can 
get going to another important meeting.
    Thank you all for being here, for your testimony.
    I want to come back to something that Mr. Satterfield said, 
talking about I think it was the University of Georgia that you 
talked about, with the level of emissions with respect to the 
poultry industry. Was that the University of Georgia?
    Mr. Satterfield. University of Georgia, yes, sir.
    Senator Carper. In about 30 seconds, just give us that real 
quick synopsis of that study.
    And then what I am going to ask is Mr. Kuhn to compare and 
contrast what you presented to us today with what the 
University of Georgia is reporting here. Please. Just real 
briefly.
    Mr. Satterfield. The University of Georgia study was 
looking at concentrations of ammonia outside of chicken houses, 
parts per million versus mass or volume of emissions that come 
out of the houses, so what is the air quality. And the study 
found that the measurements were made further and further away 
from the chicken houses, the ammonia detection levels kept 
going down and down and down. At no time during that study did 
the odor threshold levels exceed or meet OSHA's standards. And 
even when there were ammonia levels detected, they were well 
below EPA's standard.
    So, you have to understand that as you move farther away, 
you are not impacting the neighbors as much as some people 
would have you believe. And it is important to understand that 
inside the chicken house, if the ammonia is too high, those 
birds are not going to live. Taking care of the animal, the 
welfare of the animal is the No. 1 job of our growers, and 
preventing ammonia creation is among their top priorities.
    If the ammonia is over 25 parts per million, it is 
hazardous for the birds, obviously not good for the farmers who 
are in the houses working with the houses. So a lot of efforts 
are made to keep the ammonia levels low. Some of that is done 
through improvements in feed conversion, the conversion of the 
feed ingredients into meat. We see each year a better feed 
conversion, more of the nutrients being made into meat, which 
means there is less opportunity for nitrogen to come out the 
rear end of the chicken and eventually form ammonia.
    There are products available that can be put down in the 
chicken houses between flocks that will lower the pH, they are 
acid products that lower the pH, which discourages the 
formation of ammonia. That is an important part of the process. 
The U.S. Department of Agriculture's Natural Resources 
Conservation Service provides cost share money for that.
    Keeping the houses dry is important because the ammonia 
needs moisture to form. It is also good for bird health.
    And then we have a program, as you know because you have 
been out on some farms, where we have a full time employee 
whose job is to work with chicken growers to put up vegetative 
buffers around the chicken houses; trees, bushes, tall grasses. 
So those things help keep the ammonia levels low, keep them 
from dissipating to neighboring properties. As the Georgia 
study found, even without all those things, there still is a 
low level moving off the property.
    Senator Carper. All right, thanks. Thanks very much.
    What Mr. Satterfield is talking about reminds me of our 
layered approach that we have for border security. It is not 
just one thing, it is like a whole host of things to enable us 
to keep bad people and bad products from coming across our 
borders.
    Mr. Kuhn, thank you very much for your testimony. It is 
great to have you here as well. Just react very briefly, if you 
will, I don't have much time, just real briefly, maybe about a 
minute, to what Mr. Satterfield has said in the Georgia study.
    Mr. Kuhn. Yes, certainly.
    Senator Carper. Mr. Chairman, could I ask unanimous consent 
the University of Georgia study that Mr. Satterfield has talked 
about be made a part of the record, please?
    Senator Rounds. Is there objection?
    Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Mr. Kuhn.
    Mr. Kuhn. Yes. Thank you, Senator Carper. The results of 
documented research in Iowa are different than what Mr. 
Satterfield has described. Really, when the manure that is 
contained in one of these buildings is agitated and applied to 
the land, there is about 1 million----
    Senator Carper. You are talking about poultry or one of the 
hog----
    Mr. Kuhn. This is the hog CAFO like this.
    Senator Carper. Yes, I understand.
    Mr. Kuhn. There is about 1 million gallons of liquid manure 
underneath that building.
    Senator Carper. One million gallons?
    Mr. Kuhn. One million gallons. And numerous Iowa farmers 
have lost their lives due to high level of toxic gases. They 
really emit four different types of toxic gas: one, ammonia, 
which is constantly there; carbon dioxide; hydrogen sulfide; 
and methane. We have had numerous instances where farmers have 
gone in to repair something in the bottom of the pit, they have 
been asphyxiated; their son goes in to get them, they are 
asphyxiated. This is very sad, but true.
    It should come as no surprise that when thousands of 
animals are confined in a building directly on top of all the 
manure they produce, it is going to stink. The farmer will tell 
you it is the smell of money, but the neighbor would say it 
stinks to high heaven.
    If the pharmaceutical plant in my hometown has a release of 
a toxic chemical, they are required to notify local, State, and 
national officials. Why should it be any different for 
corporate factory farms? We want all of our corporate citizens 
to be good stewards of our precious natural environment.
    Senator Carper. Thank you very, very much.
    And I want to again thank Senator Booker for letting me go 
ahead of him. Thanks so much.
    Senator Rounds. Thank you, sir.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Mr. Satterfield, it is my understanding that there is a 
regulatory framework already in place for producers to comply 
with environmental rules and laws at both the State and the 
Federal level. In your experience, would including the 
additional reporting requirement under CERCLA result in any 
environmental benefit?
    Mr. Satterfield. Senator Fischer, I don't believe so. This 
is a law dealing with emergency responses; it is not a law to 
measure emissions, to quantify and aggregate emissions, to then 
make policy decisions on whether additional regulations are 
needed because those levels may meet a certain threshold. So I 
don't see any environmental benefit or human health benefit, at 
least from the chicken industry perspective, and that is all I 
can speak from, from keeping the requirement that farmers have 
to report.
    With our chicken farms, the families live on the farm; they 
are family owned farms. They live there, their children live 
there, and it is not a corporate operation. It may be with hogs 
in Iowa, I don't know, but for us, the families live there. And 
if conditions were that bad, they would do other things to keep 
those ammonia levels low and inside the houses.
    Senator Fischer. Thank you.
    Mr. Mortenson, you stated in your testimony that complying 
with this reporting requirement is a multi-step process, and it 
takes 1 year to comply. This is followed by additional 
reporting any time you add cattle to your operation.
    I am a cattle rancher from Nebraska, and I understand the 
problems that ranchers are going to face, given that moving 
cattle between pastures under a plan of grazing system that we 
have could trigger additional reporting, among other problems, 
with the compliance, so this just sounds like a bad deal, and 
it is applying a law to agriculture that was never designed to 
be applied to production agriculture.
    When the court issues its mandate on May 1st, walk me 
through the process that you are going to have to go through to 
comply with this new law.
    Mr. Mortenson. Thank you for the question, Senator Fischer. 
The first step is reporting to the National Response Center 
through the Coast Guard. And after that you have 30 days to 
send your written report in to the EPA, your regional EPA 
office, and for me, that would be in Denver. And then after a 1 
year anniversary, you have 30 days again to re-report and note 
any changes or anything.
    Now, for me, there is no scientific basis out there to 
gather that material. On a pasture based system like I run, 
there is just nothing out there, so I am not going to be able 
to provide any sort of accuracy to the information that I 
supply.
    As you said, I move the cattle around. I am in three 
different counties. During the spring, after they calve and are 
processed, the cows go to six different leases, so am I going 
to have to report that again? And when the cows are calving, my 
numbers go from one number, they just double, so what am I 
going to do now, do I have to report that I have baby calves on 
the ground?
    It is just a reporting nightmare, and the EPA, on their 
page that you have to kind of go through, says it can take up 
to 10 hours to do this report in May. I don't have 10 hours to 
sit around and make guesstimates in May; it is just a busy time 
of the year for farmers and ranchers.
    Senator Fischer. Right. Do you believe that the FARM Act is 
going to address that cumbersome process?
    Mr. Mortenson. Yes, I do. I have great confidence in it.
    Senator Fischer. You also discussed concerns about Federal 
agencies having a database on farm and ranch locations, and 
justifiably, you note the concerns of supplying the Federal 
Government with personal information regarding the location of 
these operations, which in many cases coincides with exactly 
where we raise our families. Can you please explain why this is 
concerning for producers who can gain access to this 
information and what you believe the FARM Act can do to 
alleviate some of those concerns?
    Mr. Mortenson. I think it is very dangerous when you start 
putting personal information out there for the public to 
digest. In this case, a Superfund designation on my ranch I 
think would attract a lot of attention; and not only on my 
ranch, but all the other ranches around the country. You are 
giving them your location, you are giving them the number of 
cattle you run, so, to me, it puts me in a very dangerous 
situation, I feel.
    I think this FARM Act will address that; we won't have to 
report, so, therefore, the numbers and where the cattle are 
will remain, you know, as personal information.
    Senator Fischer. Thank you, sir.
    Senator Rounds. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. Thank you and 
the Ranking Member and my colleagues.
    And to all the witnesses who are here, appreciate your 
testimony. I joined with Senator Carper and a number of my 
colleagues on a letter to Scott Pruitt at the EPA asking them 
to ask the court to continue the stay while we try to figure 
this out. I am trying to understand all the testimony and read 
through a lot of material.
    Mr. Mortenson, I think you make a very good point, 
differentiating between the concentration of certain emissions, 
like ammonia, versus the mass of emissions, because from a 
human health perspective, of course, it is the concentration 
that has the biggest impact on human health, and I think that 
is a very important point.
    Mr. Satterfield, welcome, and thank you for all you do on 
behalf of the Eastern Shore's economy in Maryland. You drew the 
distinction and said that CERCLA never anticipated that the 
CERCLA reporting requirements would apply to ``low level 
emissions'' from these ongoing operations. What is the 
threshold for low level emissions, and what is beyond that?
    Mr. Satterfield. I do not have a numeric threshold for low 
level emissions versus higher level emissions. I don't have it 
in front of me. We can do some research and find out. But my 
point was that there is very little ammonia coming out of those 
chicken houses because there is very little ammonia in the 
chicken houses if the birds are being properly cared for and 
the house is being properly managed.
    Senator Van Hollen. Right. So I think those are all really 
good points. You drew this distinction, and from a human health 
perspective there is a distinction, right? So what I am trying 
to figure out, if we say that there is no obligation to report 
emissions under any circumstances, would that mean that even if 
there were concentrated emissions, maybe they weren't doing the 
job properly in one of the poultry houses, and there were 
emissions that were concentrated to a point that it could have 
an impact on human health to the neighbor? If we pass this, 
what duty would remain with respect to farmers and reporting on 
those kind of emissions?
    Mr. Satterfield. Well, as I tried to point out, this is an 
emergency response bill. Does the admission of emissions 
trigger the need for emergency responders such as Mr. Mortenson 
to come out and do something?
    Senator Van Hollen. Right. And I agree. And probably 99 
percent of the cases would never reach that concentrated level. 
I think it is a really important point on the concentration. 
You have a big, spread out farm, you may have a lot of 
emissions, but they are not concentrated enough to have impact 
on human health.
    My question is, if you remove this requirement, in the 
event there was something that was not a low level emission, 
that was a high level concentrated emission, if we get rid of 
this entirely, is there any duty to report?
    And my understanding is, if you get rid of it entirely, 
there is no duty to report something that we might all agree 
could have an impact on human health. So I am just trying to 
understand this provision, and you had used that term, and I 
have seen it used before, low level emissions, so then the 
question is if there was not an intent to apply this to low 
level emissions, does that mean there was an intent to apply it 
to high level, concentrated emissions.
    Mr. Satterfield. I just cannot imagine from a chicken house 
there would be an escape of ammonia that would endanger the 
community.
    Senator Van Hollen. OK. And I defer to your expertise on 
that.
    Mr. Kuhn, I don't know if, in your experience with some of 
the other concentrated feed lots, non-poultry, pork, whatever, 
in your experience, have there ever been emissions that would 
trigger a requirement to protect human health?
    Mr. Kuhn. Most certainly there have been.
    Senator Van Hollen. Outside the boundary of the operation. 
Because testimony on OSHA regulations is interesting testimony. 
With respect to impact on human health outside the perimeter of 
a farming operation.
    Mr. Kuhn. In my earlier remarks I referenced attempts to 
establish regulations and thresholds for hydrogen sulfide and 
ammonia. The DNR did extensive testing over a period of years 
to determine at the property line or at the separated distance, 
that means at the place of the residence, were there direct, 
verifiable emissions of odors that affect human health, and 
they found there were.
    In Iowa, 1,000 animal units is equal to 1,000 live cattle. 
Unlike Mr. Mortenson, in Iowa they are built in confined 
feeding operations, 1,000 cattle, and certainly in some cases 
there are emissions that would threaten public health at the 
property line.
    Senator Van Hollen. Mr. Chairman, if I could just ask one 
more, because the CRS report that I believe the Ranking Member 
asked to be put in the record has not yet arrived at the 
Committee, is that correct?
    Senator Rounds. That would be correct.
    Senator Van Hollen. OK. And I understand one of the 
questions here is whether or not this legislation also 
eliminates the requirements to report under Community Right-to-
Know. And I received a document, I believe from the Ranking 
Member, who is a co-sponsor of the bill, that indicates that 
under the legislation, under Senator Fischer's legislation, 
that the reporting requirements under the Community Right-to-
Know Act would remain in place under this legislation with 
respect to large farms and medium farms. It says those would 
still be required. And maybe this is a question Senator Fischer 
and I can talk about later.
    But Mr. Satterfield, what is your understanding of the 
impact of this legislation under the Community Right-to-Know 
requirements?
    Mr. Satterfield. It is my understanding, Senator Van 
Hollen, that the FARM Act does absolutely nothing to the 
Community Right-to-Know Act.
    Senator Van Hollen. OK.
    Mr. Satterfield. It just deals with CERCLA.
    Senator Van Hollen. And the last comment I will make, Mr. 
Chairman, because I really am trying to figure this out with 
you, is in the decision, in the court decision, the judge said, 
in the final rule, that cutting back on CERCLA reporting 
requirements had the automatic effect of cutting back on 
Community Right-to-Know reporting and disclosure requirements. 
Is there something I am missing here, that is it an automatic 
flow through? In other words, it doesn't touch that statute, 
but the Community Right-to-Know statute is directly linked with 
the CERCLA statute in terms of triggering reporting 
requirements?
    Mr. Satterfield. My understanding is that, under CERCLA, 
the reports go to the National Response Center operated by the 
Coast Guard, and then 30 days later a written report to the 
regional EPA office. Under the EPCRA, the Community Right-to-
Know, it is my understanding that those reports go to the local 
and State emergency responders, not necessarily to the Federal 
people. So there are two different reporting systems, two 
different purposes.
    Senator Van Hollen. And they are totally independent, so 
this legislation, while it may impact CERCLA requirements, 
would not impact the Community Right-to-Know requirement?
    Mr. Satterfield. That is my understanding, sir.
    Senator Van Hollen. Thank you.
    Thank you, Mr. Chairman.
    Senator Rounds. All right.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank you all 
very much for being here.
    Mr. Mortenson, something that is problematic about the new 
reporting requirement is that it likely affects over 200,000 
agriculture producers across the country. Traditionally, as we 
have talked about, EPA regulates the large concentrated animal 
feeding operations, but the court decision goes way beyond 
that. We are talking about feed lots, cow calf producers, 
stockers, poultry, et cetera, et cetera. There doesn't seem to 
be a limit on who is impacted by the new requirements.
    Tell me what your buddies are thinking, in the sense of can 
they comply with this? What is their concern? You know, again, 
the solution to these problems need to come from the ground up, 
rather than a judge or somebody that has never been on a farm 
making some very, very important decisions. Tell me about your 
buddies.
    Mr. Mortenson. Thank you, Senator Boozman, for the 
question. For the most part, the people that I have talked to, 
my neighbors, don't have any idea that this is even coming, so 
if nothing is done by Congress, on the first of May a big 
surprise is coming to them, and they are not going to be happy, 
to say the least, to be labeled as polluters, when all they are 
doing is the same agriculture that has been going on in this 
country for hundreds of years, grazing cattle.
    There are a lot more people who will be regulated under 
this that have no contact with the government. Not everybody 
signs up for a government program. There are a lot of people up 
there that step away from them just so they can keep their 
private business private. So now you are going to net those 
people that don't have any contact with the government as far 
as regulations, and I don't think that is the intention.
    Senator Boozman. Right.
    Mr. Mortenson. And again I will go back to the anger issue. 
When people learn, when this gets out in the country 
widespread, everybody understands what is going to be required. 
We went through the animal ID thing a few years ago when you 
saw the anger there. I think this will be 10 times worse, 
because basically it gives the government the same kind of 
information that the animal ID was going to give, and the anger 
in the country will be tremendous.
    Senator Boozman. Very good.
    Mr. Satterfield, Arkansas produces a lot of chickens, a lot 
of poultry, much like the Delmarva Peninsula; we have that in 
common. Again, we talked about this, but tell me, tell the 
Committee how poultry growers keep their ammonia levels low. I 
know that, again, my experience has been that these are not 
huge, corporate owned entities, these are family farms that 
people work in, young people are out there working in and 
participating. Tell me how you strive to do that.
    Mr. Satterfield. Thank you, sir.
    Senator Boozman. And tell me about the success in striving, 
what you are accomplishing.
    Mr. Satterfield. These are family owned farms on the 
Delmarva Peninsula who have contracts with the chicken 
companies, and the chicken companies have certain animal 
welfare standards, and the grower's primary job is to make sure 
the conditions in those chicken houses are good for the birds; 
one, because it is the right thing to do and because if there 
are problems because of high ammonia levels, that is not good 
for the animal. That does not allow the bird to grow to its 
full potential, and that cuts into the income of the families.
    So keeping moisture levels low in the houses is important 
because moisture is necessary in the creation of ammonia. About 
20 years ago, the watering systems in these chicken houses--and 
the birds are raised on the floor, they are not in cages--the 
watering systems changed from open troughs or open pans to a 
nipple drinker system kind of like a water fountain. The bird 
pecks at it, the drop comes down, so you have less water going 
onto the litter, less potential for human conditions, less 
potential for the development of ammonia. So that has been an 
important poultry health step.
    The USDA provides cost share money for acidic products to 
go in the chicken houses on the bedding material, when the 
birds are not in there, to reduce the pH, which will nullify 
the creation of ammonia, so that is important.
    The feed conversion I mentioned, the more of the feed that 
goes into the creation of meat, less nitrogen is coming out the 
rear end of the bird, less opportunity for ammonia to be 
created.
    So those are the big ones. And then we have our buffers 
program to capture the emissions once they come out of the 
chicken houses in low levels. Remember, the birds are down here 
on the floor; a human being up here. If he is smelling a lot of 
ammonia, imagine what the little chick is smelling. If there is 
too much ammonia, it impairs the quality of the bird and the 
quality of the paws, the feet of the birds, which are a very 
valuable export product. So high ammonia levels reduce the 
quality of the product that the companies want to sell, so 
everybody has an interest in keeping those ammonia levels down.
    Senator Boozman. So the reality is, through science and 
technology, there has been tremendous advancement in recent 
years in that regard.
    Thank you, Mr. Chairman, we appreciate it.
    Senator Rounds. Thank you, Senator.
    Senator Markey, I know you just pulled in. Are you prepared 
to ask some questions at this time?
    Senator Markey. Yes, I am. Thank you. Thank you, Mr. 
Chairman, very much.
    Mr. Kuhn, do you agree that high doses of emissions can 
pose a health hazard to workers and nearby communities?
    Mr. Kuhn. Certainly.
    Senator Markey. According to the CDC, these emissions can 
cause ``chemical burns to the respiratory tract, skin, and 
eyes; chronic lung disease; and even death.''
    Mr. Kuhn, do you agree that nearby communities should be 
able to find out whether they are being exposed to high 
quantities of these chemicals?
    Mr. Kuhn. Yes, I do.
    Senator Markey. The CERCLA reporting requirements are 
triggered for farms that emit more than 100 pounds of ammonia 
or hydrogen sulfide a day. Some of these larger farms emit as 
much as 2,000 pounds of ammonia daily, and these are dangerous 
chemicals, and animal agriculture operations account for about 
three-quarters of our national ammonia pollution, according to 
the EPA. Unfortunately, the bill we are considering here would 
permanently keep the public from understanding where that 
pollution is coming from by removing reporting requirements.
    Mr. Satterfield, since the D.C. Circuit Court decision last 
April that farms should report hazardous emissions from animal 
waste as directed under CERCLA, have farmers had success in 
working with the EPA to get clear guidance put in place to 
explain how to report their emissions?
    Mr. Satterfield. No, sir, they have not.
    Senator Markey. And to what do you attribute that?
    Mr. Satterfield. Part of the problem is the difficulty in 
measuring emissions from chicken houses. There was a study done 
in 2007, the National Air Emissions Monitoring Study, to 
develop emission factors that would allow farmers, on their 
farms, to calculate it. When the data were collected, it went 
to the EPA Scientific Advisory Committee, which said these are 
not good data. We don't have a real good way to measure the 
emissions and to share the measurement techniques with the 
farmers, because the emissions depend upon the age of the bird, 
the breed of the bird, the age of the bedding material on the 
floor, whether it has been around for years or just months, the 
climate, the humidity.
    So one size fits all does not work for every chicken house. 
So until EPA figures out what is the best method to give to 
every grower for him or her to measure emissions, there is no 
way that that person accurately can measure the emissions.
    Senator Markey. So do you think that the Trump EPA should 
do a better job in working with farmers, collaborating with the 
farmers to make the reporting work for everyone, is that what 
you are saying? The Trump EPA is not collaborating well with 
the farmers?
    Mr. Satterfield. Well, I am not saying they are not 
collaborating. And I think a new study is underway. I think 
that was on the EPA Web site in late 2017 or early 2018, that 
efforts are underway to develop----
    Senator Markey. I appreciate that. But what you are saying, 
right now, the farmers are left to muddle through the issues 
themselves, without getting the full cooperation from the Trump 
EPA, and they are just leaving the farmers out there on their 
own and in a state of confusion, almost like chickens with 
their heads cut off, right? They don't have a direction that 
they are being given by the EPA.
    CERCLA actually does require the communities to have 
information they need to protect themselves. If industries emit 
dangerously high levels of hazardous chemicals, they should be 
reporting that under CERCLA. If we carve out a huge industry, 
we will cut into the safety of American families.
    So, Mr. Kuhn, how would you solve this problem? What do you 
think the EPA should be doing here so that we can keep the 
standards which we have, but ensure that there is much closer 
collaboration going on between the Trump EPA and the farmers?
    Mr. Kuhn. Well, I would like to mention that the ability 
already exists to measure hydrogen sulfide, ammonia, and even 
odor. After the passage of the legislation in 2004, the DNR was 
required to do studies on emissions of hydrogen sulfide and 
ammonia. They are trained in doing that. Inspectors were even 
taught about scentometers, where they could determine on a 
regular basis the odor that is emitted from these.
    So I am a little concerned that we talk about technology at 
one time, and then we say we don't have the ability to test it. 
Certainly, we do. So I just don't believe that--I am not really 
trusting the EPA when they promulgate the guidance on their new 
rule that would eliminate this. There needs to be it somewhere, 
and it is not coming from the State, and it is not coming from 
CERCLA. It is not going to come from EPCRA. Who is going to 
provide it? People like the Schwartzkopfs are still suffering.
    Senator Markey. I agree with you, and I think the EPA 
should just, in the words of Bill Belichick, do their job, get 
it done, cooperate, send clear guidance, and I think we would 
be in a much better position.
    So I thank you, Mr. Chairman; I thank the Ranking Member.
    Senator Rounds. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me apologize to the Committee here. I have been 
chairing the Armed Services Committee, and I fear that what I 
am going to ask has already been covered, but it hasn't been 
covered to me yet, so if there is a little redundancy here, I 
do apologize for that.
    The FARM Act, I am a cosponsor of that, it exempts the 
registered pesticide products in air emissions from animal 
waste from reporting requirements. In December the EPA 
published a final rule to exempt all farms from reporting 
these. The rule was struck down last April by the U.S. Court of 
Appeals, the D.C. Circuit.
    This would be to Mr. Mortenson. In your testimony you say 
that the biggest challenges in your industry are urban 
encroachment, natural disasters, and government overreach. I 
know a little bit about that, the lengths of government, what 
they can do and control every aspect of American life. I spent 
a number of years chairing this Committee, and we lived through 
that.
    I find it interesting that the last Administration agreed 
that these reporting requirements weren't needed or wanted by 
agencies tasked with responding to emergency situations. Yet, 
the environmentalists sued, and you have to wonder why, as you 
stated in your written testimony, there is no environmental 
benefit, but it seems there is a lot of very specific 
information that is required in reporting these emissions.
    So I would ask you, is there concern among your community, 
the farmers and ranchers, about how this information could be 
used to someone's disadvantage if it were in the wrong hands?
    Mr. Mortenson. Thank you for the question, Senator Inhofe. 
Yes, there is. We are quite proud of our environmental record 
not only on the ranch, but as a State. We have done a very good 
job of keeping the waters----
    Senator Inhofe. That is interesting you start off with 
that, because that is so obvious. The ones who are really 
concerned are the ones who own the land, and yet there is this 
idea that Government has to come in and tell you how to make 
your land look right and farm right.
    But go ahead.
    Mr. Mortenson. Absolutely. One thing I would like to 
mention, our ranch was one of four that was featured in a 
Smithsonian exhibit called Legacy of the Land, and it ran for 6 
months, and then it was taken by the Library Association 
throughout the country on a 4 year tour. So, you know, we are 
trying to do the right thing by the environment. It is very 
important to us; we make our living off it.
    So the problem I see coming is that people don't know this 
thing is coming; a lot of them are unaware of it. And on May 
1st it is going to hit the fan, you know, the manure is 
literally going to hit the fan, because they then have 30 days 
to report, and where is the information? Where do I get 
information on pasture based livestock to make any kind of 
judgment on how much ammonia or hydrogen sulfide my cattle are 
producing, and how does that change over the seasons?
    I talked about the dung beetle earlier. They are burying 
that cow pat within an hour of it hitting the ground. In the 
wintertime, obviously, they are not, but there is so much 
science that is lacking here that there is no way I can make 
accurate report, and if you get junk in, you get junk out.
    Senator Inhofe. Yes. I am very familiar with your area; I 
spent some time with the Chairman there. There is a lot of 
beauty there, and I was not aware that you were singled out and 
honored in such a way, and I am very proud of you.
    Mr. Satterfield, your testimony addresses the fact that 
information that would be reported is viewed by the EPA as 
essentially useless. I know the Coast Guard shares this view. 
Yet your industry and the rest of the ag community will be 
charged with reporting these largely unknown and low level 
emissions.
    Is there concern among the industries as to the ability or 
inability to report this information accurately and the 
potential legal liability that they would be exposed to if they 
don't?
    Mr. Satterfield. The method does not exist to give chicken 
growers the formula on how to measure emissions from their 
houses. EPA, as I mentioned to Senator Markey, put on its Web 
site it is in the process of trying to figure this out again. 
There was an effort a dozen years ago or more, millions of 
dollars spent to try to figure this out, and it couldn't be 
figured out.
    So EPA, according to its Web site a few months ago, is 
going to try again, and then--and only then--will the growers, 
the chicken growers, the family farmers have the tools they 
need to figure out what their emissions are.
    One of the concerns we have is that a lower threshold is to 
be reported based on the EPA current guidance, an upper 
threshold, and then a yearly total. Well, the activists often 
take the numbers that best suit their purpose, which would be 
the upper threshold, and say that is it, for every chicken 
house, for 365 days a year, we have a huge problem out there, 
when in fact, when a little itty bitty chick in a house of 
them, 25,000 to 30,000 birds, is not producing the upper 
threshold, which is at the maximum time coming out of the 
houses.
    There are times between flocks there is no ammonia being 
sent out of the houses. So that is a concern, that the numbers 
are going to be turned by the critics of the animal 
agricultural industry to suit their purposes.
    Senator Inhofe. And they seem to be in charge, too, quite 
often.
    Let me just end on a positive note. Mr. Mortenson, you are 
probably familiar with the partnership program. We did this 
program, it was back during the Obama administration, and they 
came out and they inspected, at our request, in fact, I made 
this a requirement, to get confirmation that they make at least 
two trips to my State of Oklahoma and really spend some time on 
the farms and the ranches.
    They came up with the conclusion that they are the ones who 
are really concerned about their own land, about the 
environment. I thought that was a great discovery, because that 
kind of broke the ice for the first time in my memory that 
Government doesn't know as much about your land as you do.
    Mr. Mortenson. Absolutely. We hosted the regional----
    Senator Inhofe. Was that Fish and Wildlife you hosted?
    Mr. Mortenson. No, it was the EPA Administrator out of 
Denver, and I can't remember what her name is.
    Senator Inhofe. Oh, OK.
    Mr. Mortenson. Very fine lady. But we gave her a tour of 
the ranch, and she was really taken aback by what is going on 
on the land, and the care that we not only give livestock, but 
the land and the water, and our concern for the health of it 
all, how it all works together as a system, and if part of it 
isn't healthy, none of it is healthy.
    So it is very important to us, and I speak for myself, and 
I think, the industry as a whole, that the environmentalist 
part of it is the most important part. We are trying to do the 
right thing, and I believe we are.
    Senator Inhofe. I believe you are, too.
    Mr. Chairman, pardon the interruption, Senator Booker. 
Thank you for your tolerance.
    Senator Rounds. Thank you, Senator Inhofe.
    Senator Booker, I think you have outlasted everybody else 
on your side. I think it is your turn.
    Senator Booker. I appreciate that, sir, and again, thank 
you very much for this hearing.
    Mr. Kuhn, could we just go real quick and just give a 
general answer of do you support this bill, S. 2421, and why or 
why not?
    Mr. Kuhn. No, I do not, as it is currently written. I think 
it is a step backward. People like the Schwartzkopfs and 
thousands of neighbors like them in Iowa have waited a long 
time. I explained the process through which the State of Iowa 
went, when they attempted to establish meaningful air emission 
standards for Iowa, and that failed.
    I understand that the U.S. Coast Guard might not be the 
best place for this type of information to be presented, but 
for the Schwartzkopfs and other families like them, they want 
it somewhere, and they are not getting the answers they need 
now.
    Neighbors do have the right and the need to know. When the 
manure is spread on the fields--I mentioned about a million 
gallons from a typical tank--it can be spread immediately 
adjacent to a neighbor's residence or their private drinking 
water well, and the CAFO operator is given up to 24 hours to 
incorporate it into the soil.
    During that time, the smell from literally hundreds of 
thousands of gallons of liquid manure can be overwhelming, and 
both the State representative and county supervisor have been 
called many times by my constituents, who have no place to turn 
but leave their homes.
    Second, neighbors also need to know everything they can 
about dangerous air emissions so they can provide that data to 
their doctor when explaining the symptoms that affect their 
personal health. Hydrogen sulfide and ammonia emissions can 
have serious short and long term consequences. Neighbors need 
to be able to document that exposure so they can receive proper 
treatment for their conditions. The conditions that the 
Schwartzkopf family suffers from are real.
    And finally, as I stated in my written remarks, there is a 
real reason why eliminating dangerous air emissions would be 
detrimental to a neighbor. Last year, Governor Terry Branstad 
signed a law that limits damages that can be awarded to a 
person who wins a lawsuit against a CAFO. The new law requires 
``objectively documented medical evidence and proven to be 
caused by the facility.'' That terminology would eliminate 
studies and research done by universities and rely on actually 
documented research that the neighbors have to find for 
themselves. If reporting requirements under CERCLA and EPCRA 
are eliminated, good neighbors like the Schwartzkopfs will not 
be able to access information, and therefore, denied any chance 
for justice in Iowa against the powerful CAFO industry.
    Senator Booker. And I think it is important the trends. New 
Jersey actually has a lot of farms. We actually are the Garden 
State and produce a lot of this nation's produce. But there is 
a trend going through farming in America, which is small and 
mid-sized farms are getting fewer and far between, and these 
massive operations, massive agribusinesses are coming about. 
You are seeing that in the poultry industry and the pork 
industry.
    As you said, some of these massive companies are not even 
American companies, like Smithfield, which is a Chinese owned 
company; and these concentrations mean the imagery I grew up 
with of farming and the farmers that I know a lot of in New 
Jersey, which are small farmers and not producing the kind of 
waste that we are talking about, but these massive 
agribusinesses do create these hazards.
    And the expansion you talked about in your earlier remarks 
of what is happening in Iowa, one thing you didn't mention on 
the record, as we look out the front yard of the Schwartzkopfs, 
the CAFO there has the right to expand; they could literally 
put another CAFO. As we see the pork industry growing in the 
State of Iowa, this expansion could have even a bigger 
deleterious effect on average Iowans, correct?
    Mr. Kuhn. Yes, it does. This particular CAFO did not 
require what is called a master matrix application because it 
falls one pig short of 1,000 animal units, and typically the 
industry builds them at that level so they don't have to go 
through this county process.
    But when they expand, as this site did attempt to expand, 
they have to go through the county for a hearing, and the 
county goes out, and it is actually the responsibility of the 
Board of Supervisors to ensure that that application meets all 
separation distances and passes a minimum threshold, sort of a 
pass-fail test.
    Well, in this case, when the operator decided to expand his 
CAFO, he was required to come before the county board, and at 
that time, according to the laws of the State of Iowa, another 
site closer to this one was approved; and the only reason it is 
not in this picture is because the operator failed to start 
construction within 1 year. If they did, we could have seen 
another CAFO, which would have been about 1,878 feet from the 
bedroom window of the Schwartzkopfs.
    So that is the problem we have. The owners of the CAFO 
don't live near it; the owners of the pigs don't live near it. 
But the Schwartzkopfs and the rural residents do.
    Senator Booker. Well, I don't know if this is real or not, 
that you introduced legislation in the Iowa legislature that 
would have said that people who own CAFOs have to live near 
them. Probably would have solved the problem real quick if that 
became the issue.
    I just want to finish, because I have a lot of respect for 
Mr. Mortenson and the industry that you are in, the cattle 
industry. In New Jersey it is a common saying to say someone is 
all hat and no cattle, but sir, you are hat and cattle, and I 
have a lot of respect for that.
    In my opening statement, I agree, I said, I hope you heard, 
that pasture based ranchers like you should not have to do this 
kind of emissions reporting; it really, to me, as you said, it 
borders on the absurd or crossed over into the border of the 
absurd. But there is a fundamental difference between the type 
of livestock raising that you do and what goes on in these 
large CAFOs with huge manure lagoons where numerous people have 
died.
    And I want to put into the record, I only grabbed one 
article of the death as a result of these CAFOs. If I may put 
that into the record.
    Senator Rounds. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Booker. As a direct result of emissions. But you 
know that there is a fundamental difference between what Mr. 
Kuhn is talking about and the kind of animal agriculture that 
you do, sir.
    Mr. Mortenson. Yes, I do. I understand the difference. And 
I am not an expert on that end of it, the CAFOs; I have no 
experience with them. I am just here to tell you about a ranch 
in Stanley County that is scared to death of this thing.
    Senator Booker. And I respect that.
    And I want to say for the record that the Chairman has not 
invited me to come out and visit your county. I hope he does. I 
try to pull him to Jersey all the time.
    But your testimony says that there are no large CAFOs in 
your county, and I respect that, but someone in another State, 
who lives just a couple thousand feet from a huge CAFO, whose 
health and whose children's health are having to deal with the 
stench, have to deal with not being able to put clothing on the 
line, have to deal without having to open their windows.
    You can understand why someone living next to that would be 
begging for the help of the government. And governments were 
established in this nation, if you read our founding documents, 
for the protection of the citizenry. You can understand why 
folks would be appealing to the government to please do 
something about the health and safety risks that they are 
experiencing as a result of these CAFOs, is that correct?
    Mr. Mortenson. Yes, I can understand that.
    Senator Booker. Thank you, sir.
    And the last point I want to make is that reasonable 
regulations--as a former mayor, I had to cut through so much 
unreasonable regulations to deal with trying to get things done 
and help people get jobs, and economic opportunity is so 
important.
    But what we see often here, and I see this in the river in 
Newark, New Jersey, is often what businesses do is they 
externalize their costs onto other people, and they internalize 
their profits. That is not the free market; that is finding 
ways to do shortcuts that are hurting Americans. It is 
perverting capitalism and the free market by pushing costs out 
to the commons and internalizing profits. The river in Newark, 
New Jersey, is polluted because of the bad practices of 
businesses. Large corporations, through a type of corporate 
villainy or theft from the future, did that.
    Right now, I talked to the head of the EPA in our hearing 
that the Illinois River is being polluted by a lot of the waste 
of animals that have been pouring into those rivers.
    So I am just hoping, Mr. Chairman, that we can find a 
balance, or I should really say to rebalance the scales to get 
rid of unneeded regulations on the people and ranchers, but to 
make sure that families, now a growing number of American 
families, as these CAFOs, as you said, in Iowa, are becoming 
more prevalent in our society as folks like the Chinese are 
finding very creative ways to outsource their pollution onto 
Americans and import the finished product into their countries, 
that we find a way to rebalance the scales for health and 
safety for suffering families suffering from respiratory 
diseases, cancers, and the like, and to undo the undue 
regulations that are ranchers like Mr. Mortenson. I believe we 
can find that balance, but I think we still have work to do.
    Thank you, sir.
    Senator Rounds. Thank you, Senator Booker.
    I think, just to wrap this up, first of all, the idea 
behind the Subcommittee is to really be able to get in to look 
at the issues, learn a little bit more about the legislation 
involved, and to recognize that sometimes, as Mr. Kuhn has 
brought out there, there are issues that many cases your local 
units of government, as a mayor would understand, as a State 
legislator would understand; I am a former State legislator, 
that the question in many cases is where do you best address 
some of the issues, where is the best place to go.
    One size does not fit all. We have different sizes here, 
different types of activities, all of which are trying to be 
addressed by one single piece of legislation.
    I think what we have learned today is, No. 1, there is a 
need to address the challenges that are found within the 
legislation or found within the rulemaking processes of the EPA 
today. The second part is that there is room for not just 
Federal, but also State and local zoning, and rulemaking to be 
involved in this as well.
    I have appreciated what all three of you have had to offer 
to this process today. The legislation before us is, in my 
opinion, a very good attempt to try to fix what is an impending 
disaster for a lot of small farms across this entire country. 
At the same time, we recognize the need to try to address the 
concerns of all of our citizens across the country as well.
    So I want to thank Senator Booker for his participation in 
this, as well as the rest of our Committee members. I would 
really like to thank all of our witnesses today for their 
testimony; you have all provided valuable information to us as 
we move forward.
    So, at this time, I would once again say that the record 
for this Subcommittee will be open for 2 weeks, and that would 
bring us until Thursday, March 22nd.
    With that, this hearing is adjourned.
    [Whereupon, at 11:50 a.m. the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
